                                Office of Inspector General
                               Corporation for National and
                                        Community Service




           PRE-AUDITSURVEYOF THE
           GEORGIACOMMISSIONFOR
          SERVICEAND VOLUNTEERISM

          OIG REPORT
                   NUMBER 04-04
              AUGUST
                   22,2003




                                               Carvoration for              ~r


                                               NATIONAL U
                                               COMMUNITY
                                               SERVICE-




                        Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 2231 4




This report was issued to Corporation management on November 28, 2003.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than May 28, 2004, and complete its corrective
actions by November 28, 2004. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-04

                Audit of Corporation for National and Community Service Grants
                                         Awarded to the
                       Georgia Commission for Service and Volunteerism

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit ehtities, tribes, and territories to assist in the creation of full- and part-time national and
communitj service programs. Currently, under the Act's requirements, the Corporation awards
approximately three-fourths of its AmeriCorps*State/National funds to State commissions. The
State comrhissions in turn fund and are responsible for the oversight of subgrantees who execute
the prograhs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General retained Cotton & Company LLP to perform a pre-audit survey
of the Georgia Commission for Service and Volunteerism. The objective of the pre-audit survey
was to evaluate: (1) the adequacy of the pre-award selection process; (2) the administration of
grant funds; and (3) grant monitoring. The audit period included Program Years 2000 - 2001
and 2001 - 2002.

The Commission was awarded AmeriCorps Formula, AmeriCorps Competitive. Program
Development and Training, and Administrative grants of approximately $1 1,323,000 for the
period covered by the survey. The auditors noted that the Commission had submitted duplicate
Finncial Status Reports, had not lmplemented its risk assessment tool, had not incorporated all
of its practices into the Policies and Procedures Manual, and did not retain subgrantee A-1 33
reports for three years from the date of receipt. However, the auditors do not recommend
perlormance of a full scope audit at this time.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided the Georgia Commission and the Corporation a draft
of this repart for their review and comment. Their responses are included in their entirety as
Appendices C and D, respectively.
                     OFFICEOF INSPECTORGENERAL
             CORPORATION
                       FOR NATIONAL AND COMMUNITYSERVICE
                      PRE-AUDIT  SURVEY OF THE
             GEORGIA
                   COMMISSION FOR SERVICEAND VOLUNTEERISM

                                    Table of Contents

Summary of Results.. ...................................................................

Background
      The Corporation for National and Community Service.. .................
      The Georgia Commission for Service and Volunteerism.. ...............

Objectives, Scope, and Methodology.. ..............................................

Results of Fieldwork.. ..................................................................
       Internal Control.. ...............................................................
       Selecting Subgrantees.. .......................................................
       Administering Grant Funds.. .................................................
       Evaluating and Monitoring Grants.. .........................................

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Georgia Commission for Service and Volunteerism Response

Appendix D: Corporation Response
August 22,2003


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the Georgia Commission for Service
and Voluriteerism (Commission) in accordance with the terms of the statement of work, dated
June 24, 2003, by and between Cotton & Company and the Office of Inspector General (OIG),
Corporation for National and Community Service (Corporation).

The primary survey objectives were to evaluate:

              The adequacy of the Commission's pre-award selection process.

              The procedures for fiscal administration of Corporation grants.

              The effectiveness of the Comn~ission'sprocedures for monitoring subgrantees,
              including AmeriCorps member activities, service hours, and statistics, and other
              information related to program accomplishments.

Wc also issued a letter to the OIG concerning our conclusions regarding audit risk, and
recommendations as to the nature and scope of additional procedures.

We conducted our procedures in accordance with Government Auditing Startdwds issued by the
Comptroller General of the United States in 2003. We were not engaged to and did not conduct
an audit of financial statements, the objective of which would be the expression of an opinion.
Accordingly, we do not express such an opinion. Further, our procedures were not sufficient to
express an opinion on the Commission's internal control or on its compliance with laws.
regulations, contracts, and grants. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that would have
been reported to you.

This repont is intended solely for the information and use of the OIG and is not intended to be
and should not be used by anyone other than the OIG.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner
SUMMARY OF RESULTS

We were engaged by the Office of Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Georgia
Commission for Service and Volunteerism (Commission) for administering its AmeriCorps
grants and monitoring the fiscal activity of its subgrantees. The primary purpose of this pre-audit
survey was to evaluate:

               The adequacy of the pre-award selection process.

               The administration of grant funds.

       .       Grant monitoring.

Based on results of procedures performed, we have made the following preliminary assessments
regarding the Commission's systems for administering its AmeriCorps grants:

               Duplicate Financial Status Reports (FSRs) were filed with the Corporation during
               the period covered by our pre-audit survey.

               The Comn~issionadministers an open, competitive process to select national
               service subgrantees. It has not, however, incorporated its policies and procedures
               related to selecting subgrantees and risk assessment tools into its official Georgia
               Conzrnission.forService and Volunteerisnz Policies and Procedures Manual.

               The Commission has established control policies and procedures to administer the
               Corporation's grant funds. It has not, however, incorporated these in its official
               Policies and Procedures Manual.

               The Commission has established procedures to evaluate and monitor subgrantees.
               It does not, however, have a policy to ensure compliance with the requirement to
               maintain copies of subgrantee Office of Management and Budget (OMB) Circular
               A- 133 audit reports for three years.

The findings and recommendations presented in this report describe these matters in detail and
address additional issues noted during the survey.

During the period of our pre-audit survey, the Commission's AmeriCorps grants were not
audited as a major program under OMB Circular A-133. Based on our preliminary assessment,
however, we do not recommend performance of a full-scope audit for Program Years 2000-2001
and 200 1-2002.

We recommend that the Corporation follow up with the Commission to determine that
appropriat4 corrective actions are taken to address the conditions reported herein, and that the
Corporatioh consider these conditions in its future oversight and monitoring of the Commission.
BACKGROUND

The Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, and tribes and territories to assist in creating full- and part-time national and community
service prolgrams. Through these grants, ArneriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, especially
addressing needs related to poverty. In return for their service, program participants may receive
a living allowance and post-service educational benefits.

Approximately three-fourth of the Corporation's ArneriCorps funds are awarded to State
conlmissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their State.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
thetn to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions also are responsible for
providing training and technical assistance to the service programs. State commissions are,
however, prohibited from directly operating national service programs.

The Georgia Commission for Service and Volunteerism

The Commission was established in December 1993 by executive order of the Governor as the
Georgia State Commission on National and Community Service. The executive order was
amended in November 1997 to place the Commission within the Department of Community
Affairs (DCA) and was renamed as the Georgia Commission for Service and Volunteerism. The
amendment also gave additional authority to the DCA commissioner.

The DCA provides the Commission with management and infrastructure benefits, including
human resources, financial accounting, administrative assistance, and procurement. The
Commission operates under bylaws revised on September 15,2000.

The Commission has six full-time employees, including an executive director, assistant director,
grants compliance manager, and three program representatives. In addition, two other
individuals, a division director and an administrative assistant, support the Commission on a
part-time basis. These individuals allocate a portion of their salaries to the Commission.
The Con~missionis annually subject to an OMB Circular A-1 33 audit performed by the Georgia
Department of Audits and Accounts. The Corporation's grants however, have never been tested
as major programs.

The Comniission provided the following information for Program Years 2000-2001 and 2001 -
2002.

                                                                   Number of
              Program Year         Corporation Funding            Subgrantees
                 2000-200 1                $5,332,591                   17
                 200 1-2002                $5,990,825                   21

OBJECTIVES, SCOPE, AND METHODOLOGY

We were engaged by the Office of Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Commission for
administering its AmeriCorps grants and monitoring the fiscal activity of its subgrantees. The
primary purpose of this pre-audit survey was to evaluate:

              The adequacy of the pre-award selection process.

              The administration of grant funds.

       rn     Grant monitoring, including:
              1. Fiscal monitoring of AmeriCorps State subgrantees;
              2. Monitoring of program accomplishments and other performance statistics; and
              3. Monitoring of AmeriCorps member eligibility and service-hour reporting.

Our survey included the following procedures:

              Reviewing applicable laws, regulations, grant provisions, the Corporation's State
              Administrative Standavds Tool, and other information to gain an understanding of
              legal, statutory, and programmatic requirements.

              Reviewing OMB Circular A-133 reports and grant agreements between the
              Corporation and the Commission for Program Years 2000-2001 and 2001-2002.

              Obtaining information from Commission management to complete the flowcharts
              in Appendix A, which documents the hierarchy of Corporation funding to the
              Commission for Program Years 2000-2001 and 2001-2002.

              Conducting inquiries, observations, investigations, recalculations, evaluations,
              and examinations of a limited sample of source documents to meet the objectives
              and methodology specified in Appendix B.
As part of the procedures performed, we documented and tested the internal controls in place at
the Commission. We summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on August 22,2003. Additionally, we provided a draft of
this report to the Commission and the Corporation. Commission and Corporation responses to
our findings and recommendations are included as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Control

According to 46 CFR 5 2541.200, the Commission must maintain financial management systems
that provide for "accurate, current, and complete disclosure of the financial results of financially
assisted activities." The Commission must also provide "[elffective control and accountability.. .
for all grant and subgrant cash, real and personal property, and other assets."

As an entity within DCA, the Commission forwards all accounting functions (except for
receiving, reviewing, and approving payments for periodic draw-downs from subgrantees), after
approval, to the DCA's Accounting Division for processing in accordance with DCA procedures.
The DCA Accounting Division is required to follow State of Georgia policies.

The Commission maintains an extensive system for tracking and recording subgrantee
expenditures. It also forwards Commission-recorded subgrantee expenditures to the DCA
Accounting Division, which enters the information into official books of record through the
Purchase Order System. A monthly reconciliation process is conducted between the
Commission office and DCA Accounting Division to ensure agreement between accounting
records.

Additionally, the Commission's Policies and Procedures Manual includes hundreds of pages of
policies and procedures from the Commission, the State of Georgia, and notices provided by the
Corporation. These policies and procedures cover rules for human resources, travel,
administrative, and subgrantee assessments and monitoring.

The core of the Commission's financial monitoring process is accomplished through desk
reviews and draw-down procedures conducted on a weekly basis. Weekly desk reviews and
drawdown procedures include reviews of subgrantee periodic expense reports, reviews of
supporting documentation for claimed expenditures, verifications of claimed member and staff
salaries, and reviews of subgrantee administrative costs and match requirements.

The Commission also conducts financial site-visit monitoring. Subgrantees are scheduled for
financial site-visit monitoring on a rotating basis and according to an assessment of risk related
to a specific subgrantee (e.g., whether the subgrantee has provided supporting documentation for
its expenses when filing Periodic Expense Reports (PERs) and the quality of the subgrantee's
financial systems).
In addition to financial monitoring, the Commission conducts program monitoring of its
subrecipients. Subrecipients are required to prepare Annual Progress Reports and submit these
reports via the Web Based Reporting System (WBRS). The Commission reviews these reports
and completes Progress Report Analysis sheets.

Also, at the beginning of the program year, subgrantees are required to enter their program
objectives into WBRS. Once entered, these objectives cannot be changed unless a formal
request is made, and the Commission approves the request.

Co~nmissionstaff also visit subgrantee sites at least once a year and up to four times a year for
high-risk subgrantees. During these site visits, Commission staff review member files, including
service logs (timesheets), to ensure that all required information is on file and that member forms
and other change-of-status forms are completed in a timely manner.

Finding: Duplicate FSRs were filed with the Corporation during the period covered by the
pre-audit survey.

The DCA Accounting Division incorporated the preparation of FSRs for subgrantee funds and
the submission of those FSRs to the Corporation into services it provided to the Commission.
The Commission, however, was already preparing complete ArneriCorps FSRs and submitting
them via WBRS. Thus, two FSRs for each reporting period were submitted to the Corporation.
Additionally, the DCA Accounting Division prepared FSRs presenting Federal-share costs based
solely on amounts drawn down and did not include information on match.

45 CFR   8 2541.2OO(b)(l) states:
               Financial Reporting. Accurate, current, and complete disclosure
               of the financial results of financially assisted activities must be
               made in accordance with the financial reporting requirements of
               the grant or subgrant.

Rec.ommendation: We recommend that the Commission follow up to ensure that only one FSR
is submitted for each reporting period, and that each FSR contain all requisite information
correctly stated. To this end the Commission and DCA Accounting Division met to discuss
proper reporting requirements for FSRs subsequent to this pre-audit survey.

Selecting Subgrantees

45 CFR tj 2550.80 (b) requires each State commission to:

               Administer a competitive process to select national service
               programs to be included in any application to the Corporation for
               funding.

The Com&sion administers an open, competitive process to select national service subgrantees.
In competitive application years, the Commission issues a Notice of Funds Available (NOFA)
letter that is widely distributed. A NOFA meeting schedule is then established throughout the
State and notices of these forthcoming meetings are publicly posted in advance to further
advertise the events.

At these meetings, the Commission provides potential applicants with an overview of the
program, including goals and objectives, application requirements, application materials, and
sample budget sheets. Interested parties are then requested to submit a letter of intent to apply.

Subgrantee applications are submitted by the Commission to a peer review panel. Peer
reviewers are required to sign a conflict-of-interest and privacy statement, and reviewers attend
an orientation meeting. Grant applications, along with instructions and score sheets, are sent to
the reviewers. The reviewers then meet to discuss and combine their score sheets to arrive at one
final score sheet. Based on peer review panel recommendations, the Commission notifies
applicants by letter whether their applications have been accepted or rejected.

Finding: The Commission has not incorporated policies and procedures for selecting
subgrantees into its official Policies and Procedures Manual.

Although the Commission has put into practice several policies and procedures related to
selecting subgrantees, it has not incorporated them into its official Policies and Procedures
Manual.

Recommendation: We recommend that the Commission incorporate its subgrantee selection
practices into its official Policies and Procedures Manual.

Finding: The Commissioiz has not implemented or incorporated policies and procedures for
risk assessments into its official Policies and Procedures Manual.

The Commission has instituted procedures related to subgrantee risk assessments and has
developed tools to aid in the risk assessment process. These tools, however, have not been
implemented or included into its official Policies and Procedures Manual.

Recommendation: We recommend that the Commission implement its risk assessment practices
and incorporate them into its official Policies and Procedures Manual.

Administering Grant Funds

According to 45 CFR § 2550.80 (d), State commissions "will be responsible for administering
the grants and overseeing and monitoring the performance and progress of funded programs."

As a unit of DCA, the Commission is required to follow State of Georgia policies, procedures,
and documentation processes with regard to authorizing and claiming expenditures against grant
funds. Additionally, the Commission has developed its own practices with regard to the
expenses it incurs for Federal grants and for financial monitoring of subgrantees. The
Commissim also uses several tools for administering grant funds.
The Commission uses a Current Monthly Budget Comparison Report (General Ledger Report)
created by DCA. This report lists expenditures by category that are presented in the budget and
provides information on budgeted amount, monthly expenditures by category, percentages of
budgeted amount expended in the month, year-to-date totals by expenditure category, year-to-
date allotment (this column records any changes to previous budgeted amounts), percentage of
budgeted amounts expended, and amount of funds remaining.

Another tool used by the Commission is the Expense Detail Report, which provides general
ledger account information, including the transaction date, amount, name of the
vendorlemployee responsible for the expenditure, and a brief explanation of the purpose for the
expenditure.

Commission management also prepares a Monthly Program Financial Status Report. This report
includes thle name of the program receiving Corporation funds, award amount, award balance
remaining, grant type, and any pertinent issues related to grant execution.

Likewise, several controls are in place to administer grant funds, including policies and
procedures, authorization forms, expense reimbursement forms, and documentation requirements
for claimed expenditures. Travel expenses and car leasing requests must be pre-approved.
Completed pre-approval forms must include information related to purpose, date, dollar value,
charge code, organization code, and appropriate signatures.

The DCA also requires con~pletionof a purchase requisition for obtaining goods and services.
Requisitions must also include information related to organization code, project code,
materiallservice descriptions, quantity, and amount. Approval signatures are also required.

Finding: The Commission has not incorporated its policies and procedures for administering
Corporation grant funds into its official Policies and Procedures Manual.

The Commission has established several policies and procedures for subgrantee financial
monitoring, but has not formalized these in a document. These consist of PER reviews, FSR
reviews, expense documentation reviews, financial site visits, financial procedure review
checklists, financial monitoring desk review procedures, and subgrantee reimbursement
procedures. Although these monitoring policies and procedures have been conveyed to
subgrantees through official memorandums and e-mails, they have not been incorporated into the
Commission's official Policies and Procedures Manual.

Recommendation: We recommend that the Commission incorporate its procedures for
administering Corporation grant funds into its official Policies and Procedures Manual.
Evaluating and Monitoring Grants

45 CFR tj 2550.80.(e) states that the Commission, "in concert with the Corporation, shall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."

The Commission has established policies and procedures to evaluate and monitor its subgrantees,
including reviewing program and financial reports, scheduling annual visits, and reviewing
programmatic progress reports. During site visits, Commission personnel use standard checklists
to guide their inquiries and to identify and communicate program strengths and weaknesses.

Additionally, Commission personnel also interact with program managers via telephone and e-
mail, interview AmeriCorps members, and conduct programmatic desk reviews. Program
directors are also required to attend all retreats, bimonthly meetings, and other Commission-
sponsored events unless specifically excused in writing by the Executive Director. Program
directors report on member activities at these meetings.

Finding: The Commission does not have apolicy to ensure compliance with retention
requirements for subgrantee OMB Circular A-133 reports.

The Commission did not have copies of OMB Circular A-133 reports on file for at least the past
three years for all five subgrantee files we tested.

OMB Circular A-133, Subpart C, Auditees, Section .320, Report Submission, Paragraph (g),
states:

              Report retention requirements. Auditees shall keep one copy of
              the data collection form described in paragraph (b) of this section
              and one copy of the reporting package described in paragraph (c)
              of this section on file for three years from the date of submission to
              the Federal clearinghouse designated by OMB. Pass-through
              entities shall keep subrecipients' submissions on file for three years
              from date of receipt.

Recommendation: We recommend that the Commission formulate and implement written
procedures for obtaining and reviewing subgrantee OMB Circular A-133 reports for at least the
past three years. We also recommend that the Commission include these procedures in its
official Policies and PvocecEtlres Manual.
                                                                                              Appendix A
                                                                                               Page 1 of 2

                                Office of Inspector General
                      Corporation for National and Community Service
                       State Commission Pre-Audit Survey: Georgia
                               Funding Hierarchy Flowchart



                                        Program Year 2000-2001
                        Corporation for National and Community Service
                           Funding to the Georgia State Commission
                                 For Service and Volunteerism




      Amer~Corps
        1;ormula
                         I
                         AmeriCorps
                         Competitive
                                              -L.earn and
                                                 Serve            Funds
                                                                             Admin~stration
                                                                                 Funds
         Funds              Funds                Funds                         F 321,500
      $ 1,890.218*       $ 2,896,623               $0            $ 149,000       Match
                                                                               $ 103.999
           Match              Match             Match                         Other CNCS
      $     174,994
          h ,             $ 1,739.939            $0                              Funds
                                                                                $ 75,250




                         -I




* The FFR for the AmeriCorps Formula Funds presents total Federal awards of
$1,910,418, which is $20,000 greater than the actual award amount. The Commission
has explained that two $10,000 planning grants were reallocated to another subgrantee,
resulting in a $20,000 overstatement on the FSR.
                                                                                            Appendix A
                                                                                              Page 2 of 2

                                   Office of Inspector General
                         Corporation for National and Community Service
                          State Commission Pre-Audit Survey: Georgia
                                  Funding Hierarchy Flowchart



                                             Program Year 2001-2002
                           Corporation for National and Community Service
                              Funding to the Georgia State Commission
                                    For Service and Volunteerism




    1
      Amer~Corps             Amer~Corps             Learn and             PDAT      Administration
        Formula              Competitive              Serve               Funds         Funds
         Funds                  Funds                Funds                            $ 219,722
      $ 2,625,237            S 2,881,543               S0             $   159.000       Match
                                                                                      $ 245,387
           Vatch                 Match               Match                           Other CXCS
      $   2,203,998          $ 1,962,640              16 0                              Funds
                                                                                      $ 105,323




                            I
                        Total CNCS Funds Retained by the Commission $404,045

                             Total Commission Matching Funds $245,387

                        Total CNCS Funds Awarded to Sub-grantees $5,586,780



      L
          Amer~Corps         AmeriCorps              Learn &              PDAT:       Admin-
           Formula:          Competitive:             Serve:                          stratio on
          $ 2.625,237        $ 2 3 8 1.543                                 $0

            Match                Match               Match                             Match
          $ 2.203,998        $   1,962,640

          Total # of          Total # of            Total # of        Total # of     Total # of
           SUBS                                      SUBS              SUBS           SUBS
              14                                                          0
          Total # of          Total # of            Total # of        Total # of     Total # of
            Sites               Sites                 Sites             Sites          Sites
             22                                                           0




* The amount of $80,000 was awarded to two subgrantees; $69,000
for Promise Fellows and $1 1,000 for Education Awards. The
Commission retained $25,000 awarded for the Disability grant.
                     B
              APPENDIX

DETAILED
       ENGAGEMENT
               OBJECTIVES
                        AND METHODOLOGY
                                                                                      Appendix B
                                                                                       Page 1 of 4
                                 Office of Inspector General
                      Corporation for National and Community Service
                        State Commission Pre-Audit Survey: Georgia
                      Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and docun~entationmaintained by
the Commission to provide reasonable assurance that transactions were properly recorded and
accounted for to: (1) permit preparation of reliable financial statements and Federal reports; (2)
maintain accountability over assets; and, (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure compliance
with Federal laws, regulations, and program compliance. Through inquiry, observation, and
inspection of documents, we documented and tested the Comn~ission'scontrols related to the
control environment, activities allowed or unallowed, and allowable costs: eligibility, matching,
period of availability of Corporation funds, procurement, suspension and debarment, program
income, subgrantee monitoring, and Commission reporting to the Corporation.

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees, including policies and procedures related to assessing the adequacy
of potential subgrantee financial systems, subgrantee controls to administer a Federal grant
program, and processes for preventing conflicts of interest in the selection process at the
Commission. We also determined if the Commission's systems and controls related to selecting
subgrantees were functioning as designed.

To achieve these objectives, we interviewed key Commission management and documented
procedures performed by the Commission during the pre-award financial and programmatic risk
assessment of potential subgrantees. We also interviewed key Commission management and
documented procedures performed by the Commission to select subgrantees.

Next, we obtained and reviewed the official policies and procedures of the Commission related
to selecting subgrantees as established in the Commission's Policies and Procedures Manual.
We also obtained and reviewed copies of desk procedures used by Commission personnel for
selecting subgrantees. We compared documented procedures discerned from management
interviews to the Commission's Policies and Procedures Manual and to the desk procedures
used by Commission personnel.

We then reviewed documentation to determine if selection officials signed conflict-of-interest
and privacy forms for each subgrantee applicant tested, and if the Commission maintained these
                                                                                     Appendix B
                                                                                     Page 2 of 4
forms. Documentation included risk assessment tools, peer review packages, correspondence,
memoranda, e-mails, scorecards, and peer review assessment sheets.

We also tested whether the Commission's systems and controls related to selecting subgrantees
were functioning as designed. Our testing methodology included selection of a judgmental
sample of subgrantee selection files and a review of file documentation for evidence of selection
criteria, as defined by Commission interviews, the Commission's Policies and Procedures
Manual, and Commission personnel desk procedures.

ADMINISTERING GRANT FUNDS

Our objectives were to:

       .       Assess the adequacy of the systems and controls used by the Commission to
               maintain appropriate financial management systems to disburse funds and track
               Commission and program expenses according to legal and grant requirements.

               Determine if the Commission's organizational structure, staffing level and
               staffing mix were conducive to effective grant administration.

               Determine if the Commission provided adequate guidance to subgrantees related
               to maintenance of financial systems, records, supporting documentation, and
               reporting of subgrantee activity.

               Assess the adequacy of financial systems and documentation maintained by the
               Commission to support oversight of subgrantees and required reporting to the
               Corporation, such as FSRs, enrollment and exit forms, change of status forms, and
               audit reports.

               Determine if the Commission had procedures in place to verify the accuracy and
               timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission management and DCA
Accounting Department management and documented the policies and procedures used by both
to administer grant funds. We also gained an understanding of both the manual and automated
systems used by Commission and DCA personnel to administer grant funds through inquiry,
observation, and by system walkthroughs.

Next, we obtained and reviewed the Commission's official policies and procedures related to
administering grant funds, as established in its Policies and Procedures Manual. We also
obtained and reviewed copies of desk procedures for administering grant funds used by both
Commissian and DCA accounting personnel. We compared documented procedures discerned
from manakement interviews to both the Commission's Policies and Procedures Manual and to
the desk prbcedures used by Commission and DCA personnel.
                                                                                     Appendix B
                                                                                     Page 3 of 4
We then observed the Commission's subgrantee drawdown process, gained an understanding and
reviewed documentation related to the U.S. Department of Health and Human Services
drawdowns by DCA, observed the Commission's processes and procedures related to subgrantee
PERs, and required supporting documentation. We also observed the Commission's procedures
for reviewing the allowability of subgrantee expenditures, reviewed its assessment of match and
administrative expenses claimed by a subgrantee on a Corporation grant, and reviewed the
Commission's procedures for verification of program members and staff hours charged to a
grant.

Next, we reviewed DCA's accounting posting modules for recording subgrantee pass-through
transactions and the Commission's direct Corporation grant expenditures. We also observed the
flow of financial information through DCA's accounting system. We further compared these
procedures to Commission and DCA Accounting Department policies and the procedures.

We reviewed FSRs and progress reports submitted by subgrantees and FSRs submitted by the
Commission to the Corporation to assess accuracy. We also reviewed financial reports obtained
from the DCA Accounting Department and compared them to similar reports produced by the
Commission.

We also tested whether the Commission's systems and controls related to administering grant
funds were functioning as designed. Our testing methodology included selection of a judgmental
sample of subgrantee files. We reviewed documentation and other corroborating documentation
to kerify that policies and procedures were in operation.

EVALUATING AND MONITORING GRANTS

Our objectives were to:

       rn     Identify and assess the adequacy of the systems and controls used by the
              Commission to implement a comprehensive evaluation and monitoring process
              for its subgrantees.

       rn     Determine if the Commission had an established subgrantee site visit program in
              place and assess the effectiveness of its design in achieving monitoring objectives.

              Determine the adequacy of Commission procedures to assess subgrantee
              compliance with Corporation regulations (e.g., eligibility of members, service
              hour reporting, prohibited activities, payment of living allowances to members,
              and allowability of costs claimed under grants by subgrantees).

              Assess the adequacy of Commission procedures for obtaining, reviewing, and
              following up on findings included in subgrantee OMB Circular A-133 audit
              reports, where applicable.

       0      Determine if program goals were established, and if program results and
              performance statistics were accurately reported and compared to these goals.
                                                                                   Appendix B
                                                                                   Page 4 of 4

              Assess the adequacy of procedures in place to evaluate whether subgrantee
              programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission management and documented
policies and procedures used by the Commission for monitoring and evaluating subgrantees.
Next, we obtained and reviewed Commission policies and procedures related to monitoring and
evaluating subgrantees as established in the Commission's Policies and Procedures Manual.
We also obtained and reviewed personnel job descriptions and copies of desk procedures for
monitoring and evaluating subgrantees. We compared documented procedures, discerned from
management interviews, to the Commission's Policies and Procedures Manual and to the desk
procedures used by the Commission.

We gainedan understanding of the Commission's Work Program System, which included its use
of centraliaed tracking and reporting systems through DCA's Bartelby system. We observed
system functionality and system controls. We selected one subgrantee and traced the work
program, including supporting documentation for program elements, for one program year for
that subgrantee.

We then obtained and reviewed checklists and other documentation used by the Commission to
monitor and evaluate its subgrantees, including Program Requirements Checklists, AmeriCorps
Member File Review Checklists, Desk Audit Forms, site visit reports, site visit responses,
Progress Report Analysis sheets, e-mails, and correspondence.

We also tested the Commission's systems and controls related to evaluating and monitoring
subgrantees to determine if they were functioning as designed. Our testing methodology
included selection of a judgmental sample of subgrantee files. We reviewed other corroborating
documentation to verify that policies and procedures were in operation. We further determined
if the Commission had received and reviewed OMB Circular A-1 33 audit reports from
subgrantees.
                   APPENDIXC

GEORGIA
      COMMISSION
               FOR SERVICE              RESPONSE
                         AND VOLUNTEERISM
                                              GEORGIA DEPARTMENT OF
                                  COMMUNITY AFFAIRS
      Mike Beatty                                                                                             Sonny Perdue
    COMMISSIONER                                                                                              GOVERNOR

                                                       November 14, 2003

                Mr. J . Russell George
                Inspector General
                Cosporation for National and Community Service
                120 1 Ncw York Avenue, r\jW
                Suitc 830
                Washington. DC 20525


                DC;II.Mr. George:

                         'Tllis letter is the Georgi:, Commission !'or S e n k e and Volunteerism's (GCSV)
                official response to your letter of October 17, 2003, containing the draft report on the
                results of our pse-audit survey which was conducted by Cotton & Company, LLC, at our
                offices during the week of A u g ~ ~ 1s 1t . 2003. We :ire pleased to inform you that we
                concur with the findings outlined in that report an3 have already acted as suggested on
                each I-ccommendation which was made The wl-itten policies which were suggested to J)u
                placed in writing i n our policy notebook have been clone and are already activated.
                Copies of those policies will follow unde: separate cover.

                         OLII-GI-antsCompliance Clffice: !Intc!-n;~!.\ud~tor)did find two mistakes on thc
                second of the two Funding Hierarch) Flowcharts which are found in the Appendix A.
                The block in the c h x t for Program Year 200 1-2002 on the second tier at the far left titled
                "AmcriCorps Formula Funds reads on your draft $2.625,236 and should read $ 2 . 6 2 5 3 7 .
                You will note that the correction will match the same number in the lowest tier of blocks
                at the far-left side of the page. Ir: the top line on the third tier block titled "Total CNCS
                Funds Retained by the Co~imission"your copy !cads $403,954 and should read
                $404.045.

                         A copy of that Appentl~xpi.igc showing ihe two erl-ors is attached to this letter a l l t i
                is highlighted in light blue color. The Tntesnal Auditor has indicated in the right-hand
                margill of that IXISC which number5 were used to w i v e at $404,045. Should you need
                actilitional information concerning how we arrived at these totals, please contact Mr. John
                Napolrtano, Grants Compliance Officer for the GCSV, directly at (404) 679-0562.

                        We will have a letter with copies of the written policies referred to in my first
                p;~;igraphabove i n the mail L P you by the nlidd ic the week of November 17, 3003. 1
                would like to mention here that we found thz p-c-;l~:tiitexperience positive and very
                ini'osmative and helpful in icaiiing ua toward the inlplementation of written policies and


                           60 Executive Park South, N.E. Atlanta, Georgia 30329-2231 (404) 679-4940
EQUAL HOUSING
 OPPORTUNITY                                          www.dca.state.ga.us                                              Rec~cledPaper
                                                     An Equal Opportunit~E~nplover
GA C o ~ n l n i s s ~ o1'0n1- Scrvicc & Voluntccrism
M,,115haIl
    ..     to J. Russcll Gcorge
Pre-audit Survcy Draft Report Response Leiicr
Novcmlxl- 14. 2003
Payc 2 01' 2



procedures where we were lacking those, as wcll as in overall validation of the high
c1u;llity pi-op;t~nn i ; ~ n ; i ~ e n l ~s yn t c ~ i i sL I I I C ~ Cwhich
                                                                       I.    Lve operate.

        Should you need additional information from me plcase feel free to call (404)
327-6844. I a m ~ ~ s u a l in
                            l y the office fsom 9:00 AM until 6:30 PM each day. We look
forward to your response concerning the mathematical errors on the flow chart described
hesein




                                                  J;imcs I-'. Mwslii~ll.11..
                                                  I3ccu1ivc Dircc~ss
                                                  Georgia Commission for Service & Volunteerisni

CC:       Carol Bates
          Alan Rosenthal
          'Tersy Bail
          Heather Pritchard
          John Napoiltano
          Cheryl Blanhenshlp
          I<aren Peter5
          (i'iyle II11Iekc

Attachment as noted on page one.
                                                                                  Appendix A
                                                                             &&QL               O f -         s u r o o
                                                                                  F\        02                1/Cj7LL
                          Office of Inspector General
                Corporation for National and Community Service
                                                                                            Tar&     -       -1,    >kb
                 State Commission Pre-Audit Survey: Georgia               a&=+           o/                   /03 4 9 y
                                                                                        -01                  sccJ 3 r 7
                         Funding Hierarchy Flowchart                           ,-&7/c       L    -              ~ 6
                                                                                                         ( - 33 ~ ~ )
                                                                          YU O          ~       L        ~        G            r;3;3G
                                                                                                                                ~


                                                                     eM             ~3,/or                   /--
                                                                                                                -7
                                                                                                              9 ' 3




                                   Program Year 2001-2002                                                    ,-
                                                                                                              -\
                  Corporation for National and Community Service                                                      ,t           ,I
                     Funding to the Georgia State Commission                                         h ~ p,                             o~

                           For Service and Volunteerism                                             3 > (f@p
                                                                                                          9-y 7
                                                                                                                                   '



     I                                                                                              Pq
                                                                                                    @
                                                                                                                p7.



                                        I
AmerlCnrps          Arner~Corps           Learn and                       Administrative
  Formula           Competit~ve             Serve            Funds            Funds
   Funds               Funds               Funds                            S 219,722
S 2,625.2           S 2,881.543              s0             S 159,000         Match
                                                                            S 245.387
   Match               Match                Match                          Other CNCS
S 2.203.998          S 1.962.640             S0                               Funds




                     Total Commission Matching Funds $245,387                                   LSE/.PL               3    -


                Total CNCS Funds Awarded to Sub-grantees $5,586,780
                                                                                                    //       000       -           L54c
                                                                                                    67000-                     h        7   2

                                                                                        1d'Jb 4,7gd
                                        L                                 L
 AmeriCorps         AmeriCorps            Learn &           PDAT:           Admin-
  Formula.          Competitive:           Serve:                          istrative:
 S 2.625.237        S 2,881.543             S0                                 S0
    Match              Match                Match                           Match
 S 2,203,998         S 1,962,640             s0                              S0

  Total # of         Total # of           Total # o f   Total # of         Total # of
   SUBS               SUBS                 SUBS                             SUBS
      14                 5                    0                                0
  Total # o f        Total # of           Total # of    Total # of         Total # of
    S~les              Siles                Sites         Sites              Siles
     22                  6                    0                                0




  Draft Report Dated 8/22/03 is for Discussion Purposes Only
                                    * ~ f &y ~ ~ ~ ~
                                    COMMUNITY
                                    SERVICE-




To :          Russell George, Inspector General

                                              I

From:         Peg Rosenberry, Director of Grants Management


Cc:           Michelle Guillermin, Chief Financial Officer
              Rosie Mauk, Director of AmeriCorps

Date:         November 17,2003

Subject:      Response to OIG Draft Audit Report 04-04: Pre-Audit Survey of the Georgia
              Commission for Service and Volunteerism



We have reviewed the draft Pre-Audit Survey of the Georgia Commission for Service and
Volunteer~smand the Commission's response to the report. The Commission stated that they
concurred with the findings outlined in the report and have already acted on each
recommendation. Due to the limited timeframe for response to this draft, we have not yet
confirmed that corrective actions have been implemented. We will do so once the final survey is
issued.




                            1201 New York Avenue, NW     *
                                                       Washington, DC 20525
                                  202-606-5000 * www.nationalservice.org
                           Senior Corps   * ArneriCorps * Learn and Serve America         The President's Call to   eke
